<html>
<title> - EXAMINING THE STATE DEPARTMENT'S REPORT ON IRANIAN PRESENCE IN THE WESTERN HEMISPHERE 19 YEARS AFTER AMIA ATTACK</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                EXAMINING THE STATE DEPARTMENT'S REPORT
                   ON IRANIAN PRESENCE IN THE WESTERN
                 HEMISPHERE 19 YEARS AFTER AMIA ATTACK
=======================================================================



                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                            SUBCOMMITTEE ON

                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2013

                               __________

                           Serial No. 113-65

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
82-311                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida

                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Matthew Levitt, Ph.D., director and senior fellow, Stein Program 
  on Counterterrorism and Intelligence, The Washington Institute 
  for Near East Policy...........................................    15
Mr. Michael A. Braun, co-founder and managing partner, Spectre 
  Group International, LLC (former Chief of Operations, Drug 
  Enforcement Administration)....................................    32
Mr. Eric Farnsworth, vice president, Council of the Americas and 
  Americas Society...............................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina: Letter to the Honorable John Kerry, 
  Secretary of State, dated August 1, 2013.......................     8
Matthew Levitt, Ph.D.: Prepared statement........................    18
Mr. Michael A. Braun: Prepared statement.........................    34
Mr. Eric Farnsworth: Prepared statement..........................    43

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
Written response from Mr. Eric Farnsworth to question submitted 
  for the record by the Honorable Luke Messer, a Representative 
  in Congress from the State of Indiana                              63


                    EXAMINING THE STATE DEPARTMENT'S

                   REPORT ON IRANIAN PRESENCE IN THE

             WESTERN HEMISPHERE 19 YEARS AFTER AMIA ATTACK

                              ----------                              


                        THURSDAY, AUGUST 1, 2013

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee will come to 
order.
    After recognizing myself, Chairman Salmon, Ranking Member 
Deutch, and Ranking Member Sires for 5 minutes each for our 
opening statements, I will then recognize other members for 
their 1-minute statement should they seek recognition. We will 
then hear from our witnesses, and, without objection, your 
prepared statements will be made a part of record. Members may 
have 5 days in which to insert statements and questions for the 
record, subject to the length limitation in the rules. And Mr. 
Deutch is in another committee. He is finishing up there, and 
as soon as he finishes, if we are already on the witnesses, we 
will yank you out of that microphone--no, we will just briefly 
interrupt so he can make his opening statement.
    So thank you, Chairman Salmon, who chairs our Western 
Hemisphere Subcommittee, and thank you to Ranking Member Sires, 
who is the ranking member on that subcommittee.
    And the Chair now recognizes herself for 5 minutes.
    I came into Congress in 1989 and was here 19 years ago when 
the AMIA attack occurred in Buenos Aires, Argentina, in 1994. 
Fast forward to today, and the Iranian presence in Latin 
America is on the rise and poses a greater threat to our 
national security.
    Two months ago the special prosecutor for AMIA, Alberto 
Nisman, released a 500-page report citing extensive evidence of 
Iran's intelligence and terrorist networks alive and well in 
various Latin America nations. This report reaffirmed that Iran 
continues to use its diplomatic and cultural centers as a 
facade to infiltrate the region.
    As our two subcommittees continue to do our due diligence 
and shine the spotlight on the Iranian presence in the Western 
Hemisphere, it is important to examine this problem through the 
prism of the Obama administration's failed policies in Latin 
America. Time and again we have seen the Obama administration 
fail to hold oppressive regimes accountable for the human 
rights violations, constitutional revisions, and a breakdown of 
rule of law in the region.
    The ALBA nations of Venezuela, Nicaragua, Ecuador and 
Bolivia, and to a certain extent now, sadly, Argentina, 
continue to undermine U.S. efforts in the region, and it is not 
surprising that those same countries have opened up their arms 
to embrace the Iranian regime.
    Just yesterday the Subcommittee on the Middle East and 
North Africa held a hearing on the Iran-Syria nexus, and 
Ambassador John Bolton stated, and I quote, ``The largest 
Iranian diplomatic facility in the world is in Caracas. 
Caracas, Venezuela, because they are laundering their money 
through the Venezuelan banks.''
    In order for the Obama administration to get serious about 
this issue, it cannot ignore the close ties between Venezuela 
and Iran, but it has become abundantly clear that the 
administration continues to put politics over national 
security. To admit that there is a problem in the hemisphere 
regarding Iran, the administration would first have to put the 
blame on the Venezuelan regime, the same regime that it 
continues to attempt to normalize relations with. The decision 
is misguided and will only embolden the corrupt Venezuelan 
leadership.
    One month ago the Department of State presented to Congress 
a report on the Iranian influence in Latin America, and we 
thank our colleague for passing a bill making that possible; a 
report that was required thanks to the efforts of Mr. Duncan.
    Our responsibility as policymakers is to do our best to 
prevent problems from becoming even worse. We cannot wait until 
this threat increases to such a level that it cannot be 
contained, so we must be proactive and not reactive. That is 
why I was extremely disappointed that the report failed to 
reach its objectives required by U.S. law and failed to connect 
the dots on what is really going on in the hemisphere with 
Iran.
    The report lacked a coherent and detailed strategy on what 
the Department of State and other Federal agencies are doing to 
combat the Iranian threat in our region, and drastically 
underestimated that threat. For example, the report states the 
U.S. intelligence community works with our allies in the region 
to collect information on Iranian activities. What it failed to 
mention is the fact that there is a large intelligence gap 
within our own intelligence community to gather accurate 
information on Iranian activities, and this administration has 
failed to appropriately address this threat.
    In March of this year, the Commander of SOUTHCOM testified 
before Congress and said, and I quote, ``I would be remiss, 
however, if I did not share with the Congress my assessment 
that the U.S. Southern Command's limited intelligence 
capabilities may prevent our full awareness of all Iranian and 
Hezbollah activities in the region.'' This is why I offered an 
amendment to the NDAA this year that authorizes the Secretary 
of Defense to deploy assets, personnel, and resources to the 
Joint Interagency Task Force South in coordination with 
SOUTHCOM to combat narcoterrorism and the Iranian threat in the 
region.
    The links between terrorism and drug trafficking are well 
known, which is why it is easy to assume why the Iranian regime 
and its proxies are in our hemisphere that continues to battle 
drug trafficking. What this administration fails to comprehend 
is that terrorists fighting in the Middle East, in Syria, in 
Iran, in Yemen, in Lebanon are financing their illicit 
activities from drug trafficking proceeds being collected from 
right here in our own region.
    Whether it is the foiled plot by an Iranian Revolutionary 
Guard Corps member to assassinate the Saudi Ambassador to the 
U.S. on U.S. soil, or the DEA-led investigation into the 
Lebanese Canadian Bank, and Operation Titan, it is clear that 
the Iranian regime is supporting operatives in our region. So 
it is in our national security interest to dismantle these 
transnational criminal organizations, and we cannot and must 
not turn a blind eye to this imminent threat.
    And with that, I am pleased to yield for his opening 
statement to Ranking Member Sires.
    Mr. Sires. Thank you, Madam Chairwoman and Mr. Chairman. 
Good afternoon, and thank you to our witnesses for being here 
today.
    This month marked the 19-year anniversary of the AMIA 
Jewish Community Center bombing in Buenos Aires, which killed 
85 people. Two years earlier in March 1992, a car bomb exploded 
in front of the Israeli Embassy in the same city, killing 30 
people and injuring 242. On both occasions Hezbollah, along 
with Iranian officials, were implicated by Argentine 
authorities in what today remains amongst the most devastating 
terrorist attacks Latin America has experienced. Tragic still 
is the fact that today justice remains elusive, all of which 
makes a Joint Truth Commission between Argentina and Iran to 
review the case a puzzling proposition that does more to pour 
salt over the wounds of the victims' families than seek 
justice.
    In recent years pervasive anti-Americanism fueled Iran's 
relationship with countries like Bolivia, Cuba, Ecuador, 
Nicaragua, and Venezuela. The leftist leaders, the so-called 
ALBA group, and Iran's Ahmadinejad found favor and ideological 
kinship with each other. Their regional encounters, often led 
by former Venezuelan President Hugo Chavez, involved the 
announcement of improbable joint ventures and U.S. antagonism.
    Nevertheless, these relationships begged the question of 
the underlying intent. On one side has been an Iran whose 
support of terrorism, international disregard and nuclear and 
vision has been an imminent threat to the global community. On 
the other are several regional state actors whose leaders have 
exhibited disregard for democratic principles and the goal of 
reducing U.S. influence in the region.
    U.S. intelligence officials have noted that the crippling 
effect of sanctions against Iran and attempts to defraud the 
international community gave way to an outreach effort within 
the hemisphere to reduce its international isolation. For the 
ALBA bloc of nations, their associations with Iran has provided 
shallow, yet symbolic economic opportunities; above all, it has 
given them an international platform to espouse anti-American 
rhetoric. While these interactions may be more about 
showmanship than brinkmanship, Iran's presence and activities 
in the hemisphere must not be taken lightly and should remain a 
security concern of the United States.
    For instance, a 2011 failed assassination attempt against 
the Saudi Ambassador in Washington, DC, involved two Iranian 
nationals who sought the aid of Mexican drug cartels, 
reflecting a will by Iran to carry out an attack within the 
U.S.
    Moreover, the State Department's 2012 report on terrorism 
noted that while there were no known operational cells of 
either Hezbollah or al Qaeda in the hemisphere, they remain 
ideological sympathizers, providing financial support in areas 
like the triborder region of Argentina, Brazil, and Paraguay.
    Partly for these reasons, Congress requested that the State 
Department submit an assessment of Iran's presence and activity 
in the Western Hemisphere. The mostly classified report 
submitted to Congress late last month maintains that Iran's 
influence in Latin America and the Caribbean is waning. 
Therefore, the purpose of this hearing today is to examine the 
State Department's determination.
    This hearing and the reports released come at the heels of 
various significant events that have the potential to change 
the course of Iran's presence and influence in the hemisphere. 
Venezuelan President Hugo Chavez died in March, and last month 
Hassan Rouhani was selected to be Iran's new President. It is 
uncertain as to whether Iran and Venezuela's new leaders will 
maintain the same level of interaction seen under Chavez. 
Additionally, Argentina's prosecutor, Alberto Nisman, recently 
released a scathing report on Iran's activities throughout 
Latin America.
    I remain skeptical of whether anything of substance is 
going to be achieved with the so-called Truth Commission. While 
I am deeply concerned about Iran's involvement in this 
hemisphere, particularly on the financial and security front, I 
think it is imperative that as we move forward, we do so in a 
manner that does not set back our relations with our friendly 
neighbors.
    I look forward to hearing the testimony from our witnesses 
about the State Department's determination of the Iranian 
threat and what directions our foreign policy should take in 
regards to the situation.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, Ranking Member Sires, for that 
great opening statement.
    And we are so pleased now to turn to the chairman of the 
Western Hemisphere Subcommittee, Mr. Salmon.
    Mr. Salmon. Thank you.
    I would like to thank Chairman Ros-Lehtinen for joining me 
in convening today's hearing, and the witnesses who have taken 
the time to come before this joint hearing to show their 
thoughts on Iran's presence in the Western Hemisphere, how this 
presence may affect our national security, and whether the 
State Department's report provided Congress with an accurate 
picture of the potential threat.
    When the Countering Iran in the Western Hemisphere Act, 
which was sponsored by our great friend and Representative from 
South Carolina, Jeff Duncan, last year and passed in December 
of last year, there was a reasonable expectation that the State 
Department would draft a thorough and thoughtful report in 
response to legitimate concerns that Iran and its proxies 
maintain influence throughout our hemisphere.
    Unfortunately, the State Department delivered a dismissive 
report that lacked the depth and seriousness this very 
important national security issue warrants. The unclassified 
State Department report concluded that Iran's influence in the 
region is waning and based on that assessment--or based that 
assessment on several unfulfilled commercial agreements between 
Iran and some of the hemisphere's ALBA countries. Nowhere did 
the report consider what most security experts agree is Iran 
and its proxy Hezbollah's ability to slowly and methodically 
establish inroads necessary to launch acts of terrorism as they 
did in Argentina while planning the 1994 bombing of the 
Argentine Israelite Mutual Association. Therefore, citing the 
lack of imminent Iranian or Hezbollah threat or anecdotal 
information that Iran has been unreliable after signing 
commercial agreements provides very little comfort to those 
dedicated to our Nation's security.
    Moreover, the report failed to give proper consideration to 
the fact that the ALBA-aligned governments that have welcomed 
increased Iranian diplomatic presence over the past several 
years, Nicaragua, Bolivia, Ecuador and Venezuela, have been 
undermining democratic institutions in their respective 
countries, creating exactly the type of environment, complete 
with vitriolic anti-Americanism and a stranglehold on liberty, 
that makes for an ideal breeding ground for Iranian 
adventurism.
    As chairman of the Subcommittee on the Western Hemisphere, 
last week I asked Assistant Secretary Jacobson to come to the 
Hill to answer the many questions my colleagues and I have 
about their dismissive report. I convened today's hearing 
jointly with Chairman Ros-Lehtinen to continue to dig in deeper 
into the nature of the threat posed by Iran and its proxies 
present so close to our homeland. The American people 
rightfully expect their Representatives to take the security of 
our Nation seriously. I am confident that today's hearing will 
shed further light on the nature of Iran's presence in our 
hemisphere, and I want to once again thank our witnesses for 
coming forth with testimony on this matter of national 
security.
    Finally, Madam Chairman, I would like to express a warm 
thank you to our subcommittee's summer interns. We had two of 
them, and they were phenomenal: Emily King and Eric Meroney. 
Yeah, thank you, yay. We really appreciate--we really 
appreciate the great work that they have done. They brought 
with them an exceptional amount of professionalism, hard work, 
integrity, and we are just thrilled that they could work with 
us this summer.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Salmon.
    Now we are pleased to recognize members for their opening 
statements, and we will begin with Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chair, and I want to thank 
the witnesses for joining us today.
    I very well remember 19 years ago when the Jewish Community 
Center of Buenos Aires was bombed. My interest at the time was 
perhaps heightened because I was then a young leader in the 
Jewish community of Chicago.
    There were and continue to be very close ties between our 
communities, and we all share, as we do here, the same concern 
and disappointment that justice remains denied for the victims 
of Argentina.
    Let me jump forward to today. Last week we were encouraged 
see that the European Union acted to finally designate the 
military wing of Hezbollah as a terrorist organization, a 
reality which the U.S. and many of our allies have known for 
years. Despite this designation, there is much work to be done. 
Hezbollah and, by extension, Iran continue to have global reach 
which threatens U.S. interests and those of our close allies. 
We cannot let up on the pressure on the European Union until 
they agree to join the U.S. and others in a comprehensive 
sanctions regime that would stifle Hezbollah's global influence 
network.
    This hearing focuses on Hezbollah and Iran's influence here 
in the Western Hemisphere. Despite the low occurrence rate of 
terrorist attacks in our region, this international 
organization continues to use its network of local banks, gangs 
and drug traffickers to launder money and finance regional 
destabilization efforts in the Middle East and elsewhere. I 
look forward to hearing from the panel on how the U.S. can best 
combat this international terrorism finance network, and what 
steps we might take to pursue an all-inclusive sanctions 
regime.
    I thank the chair for calling this hearing today, and I 
yield back my time.
    Ms. Ros-Lehtinen. Thank you very much.
    And I am now very pleased to recognize Mr. Duncan, who was 
the author and passage of the bill calling for the report on 
Iran's presence in the Western Hemisphere was so successful. 
You were the only freshman to pass a bill.
    Mr. Duncan. I thank you. In this committee, anyway.
    Ms. Ros-Lehtinen. Okay. You are recognized.
    Mr. Duncan. Thank you so much, and it wouldn't have 
happened had it not been for the leadership of Chairman Ros-
Lehtinen, and so I want to applaud her and Chairman Salmon for 
holding this joint subcommittee hearing today to examine the 
threat from Iran's actions in the Western Hemisphere, and 
assess the State Department's recent report to Congress.
    Earlier this month, as chairman of the Oversight 
Subcommittee on the Homeland Security Committee, I held a 
hearing to examine the threat to the U.S. homeland from Iran's 
extending influence in the Western Hemisphere. All of the 
witnesses highlighted the activities of Iran, and provided 
compelling evidence showing Iranian influence increasing, 
rather than waning as the State Department claims.
    Although Congress has held numerous hearings culminating in 
today's hearing, and although Congress passed bipartisan, 
bicameral legislation that the President signed into law, the 
State Department's report to Congress was inadequate in its 
lack of rigorous evaluation conducted in a comprehensive and 
coordinated manner. I question the State Department's scope, 
methodology, and findings in its report to Congress, evidenced 
by the fact that the State Department did not reach out to even 
one ally or partner in this hemisphere to craft its assessment 
or strategy. The State Department also failed to consider all 
of the evidence in the extensive 500-page report by general 
prosecutor of the AMIA bombing, Alberto Nisman.
    Although Iran has publicly stated that promotion of all-out 
cooperation with Latin American countries is one of its top 
priorities and among the definite and strategic policies of the 
Islamic Republic of Iran, this administration refuses to see 
Iranian presence in the Western Hemisphere as a threat to U.S. 
security.
    Testimony from the Oversight Subcommittee hearing found 
that Iran has exemplified steady patience in building networks 
within the Western Hemisphere. Iran has penetrated countries 
through mosques, Embassies, cultural centers, and recruited 
over 1,000 students in Latin America to travel to Iran for 
training. Iran also possesses the ability to obtain fraudulent 
passport documentation and exploit free-trade zones and loose 
border-security measures. Iran's close cooperation with drug 
cartels and criminal networks in the region and expanding trade 
with countries like Argentina and Brazil should cause the 
administration to prove to the American people that Iran's 
influence is actually waning rather than simply asserting it.
    Today I, along with several Members of Congress, including 
Chairman Ros-Lehtinen, and Chairman Royce and Chairman Salmon, 
sent a letter to Secretary Kerry requesting specific answers to 
questions that have not been answered. I ask that this letter 
be submitted into the record.
    Ms. Ros-Lehtinen. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Duncan. Thank you, Madam Chairman.
    I look forward to the State Department's response in a 
timely manner.
    I also expect the GAO to examine this issue in depth, and I 
look forward to their report in the coming months.
    And I will finish my comments by just saying in the written 
testimony of Mr. Levitt, he mentions 300 Lebanese were smuggled 
into this country in the car, in the trunk, and I hope you will 
mention this in your testimony, but in the trunk of his car 
across the Mexican border into this country. We can't ignore 
this issue that Iran is a threat, and there is a possibility 
that by saying that it is waning and taking our eye off the 
ball, we could be a target and could result in implications and 
further complications.
    So with that I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Duncan.
    Mr. Vargas is recognized.
    Mr. Vargas. Thank you very much, Madam Chair.
    I would also like to thank the respective chairs and 
ranking members of each subcommittee for this timely hearing 
and for the opportunity to speak here today. I want to express 
my deep concern regarding Iran's growing presence and influence 
in the Western Hemisphere.
    As the world's leading sponsor of international terrorism, 
Iran's network of proxies and syndicates have conducted 
terrorist attacks such as the two bombings in Argentina in 1992 
and 1994, and they continue to expand their reach in the 
region. Of particular concern are Iran's efforts to develop 
ties with Cuba, Venezuela, Argentina, Bolivia, Ecuador and 
Nicaragua.
    Trying to circumvent U.S. and U.N. sanctions meant to 
isolate them from the international community, Iranian 
officials have declared an all-out cooperation with Latin 
America countries, and have invested heavily in mosques, 
Embassies, cultural centers, and student recruitment in Latin 
America trying to seek favor. We must do all we can to stop 
Iranian influence in our hemisphere.
    I look forward to hearing from the witnesses today, and I 
thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas.
    Mr. Chabot is recognized, the chairman of the--what is the 
name of your subcommittee?
    Mr. Chabot. Asia and the Pacific.
    Ms. Ros-Lehtinen. That's it. That's a big chunk of land.
    Mr. Chabot. Thank you very much.
    Chairwoman Ros-Lehtinen and Chairman Salmon, I want to 
thank both of you for calling this hearing.
    Iran's threat to the U.S. is no secret. Iran's deep-rooted 
linkages to rogue regimes around the world and those countries 
that are fixated on propagating anti-Americanism and anti-
Semitism are very real and must be taken seriously. Its ties to 
Syria threaten the stability of the entire Middle East, and 
similarly, its support to North Korea is destabilizing Asia.
    As we will discuss this afternoon, Iran's growing influence 
in Latin America and throughout the Western Hemisphere is just 
as dangerous. The administration's report on Iranian influence 
in the Western Hemisphere is troubling because saying that 
Iran's influence is waning disregards the real facts. It 
mistakes the trees for the forest. Tehran has developed a broad 
network through its Hezbollah proxy and relationships with 
local criminal organizations to support an extensive strategy 
that promotes terrorist activities.
    This report does not show that we are doing enough to deter 
Iranian-sponsored terrorist acts. Yesterday the Nuclear Iran 
Prevention Act was passed on the House floor, which is an 
important step in dramatically increasing the pressure on Iran 
to halt its nuclear ambitions and cut off its money-laundering 
schemes in the region. The question is, what do we do next?
    I look forward to hearing the testimony of our 
distinguished witnesses here this afternoon, and I yield back 
the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Chairman Chabot.
    Mr. Meeks is--thank you, Mr. Meeks, sorry. Albio is a big 
guy. I didn't see you there.
    Mr. Meeks. Thank you, Madam Chairwoman. I want to thank you 
and Chairman Salmon for convening this hearing today to examine 
the security of our southern neighbors. And there is no doubt 
that there are nefarious elements in the region that need to be 
countered. Specifically, Iran and Hezbollah's interests and 
activity in the Western Hemisphere are troubling and should be 
diligently countered by a robust and proactive United States 
foreign policy. International criminal networks connected by 
Hezbollah greatly threaten the security of the United States 
and undermine our efforts to promote stability and democracy in 
the region and around the world.
    We are here today to talk about what findings that the 
State Department had, and I wish we had a State--and maybe we 
do need a hearing where the State Department is here also so 
that we could hear a full and complete report as to what has 
taken place, what the State Department found, how they found 
it, how did they--what kind of information they have obtained, 
as opposed to just dismissing it and going with some--you know, 
some other place where I don't know whether they had--I have 
had some hearings and some meetings, I should say, some 
classified, in regard to that, and I wish--can't talk about all 
of those things here--but the State Department should have a 
seat here so that we could have them answer some questions, and 
they can tell you specifically what they found, how they found 
it, and why they found it, as opposed to just making a 
presumption that their report just means nothing, and all these 
things are going on. I think that we need to do a more holistic 
finding, a holistic type of hearing where we can then really 
get into the facts and not just fan fire when we don't know 
whether it is or not.
    So I think it would be fair to have both sides here, have 
everyone here, so that everybody could hear all of the facts, 
all of the circumstances, and we then know which direction that 
we should head in.
    I yield back the balance of my time.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Meeks.
    And we will be glad to have you cosign a letter that I 
routinely send to the State Department. We have been begging 
for 3 years to have them come testify. We would be pleased and 
honored to have you join us in that bipartisan effort.
    Mr. Meeks. I would love it. I know every time we have had a 
classified meeting, they have been here and been willing to 
give us that information.
    Ms. Ros-Lehtinen. They always do classified, but never 
open.
    Thank you so much, Mr. Meeks. We will turn that over to 
you.
    Ms. Meng, so pleased to recognize you for your opening 
statement.
    Ms. Meng. Thank you, Madam Chairwoman. Thank you to our 
witnesses for being here today.
    Yesterday we passed H.R. 850, strengthening Iran sanctions, 
but this does not mean we can head off to our August work 
periods feeling content with our efforts on the Iranian 
question. The Iranian regime is smart and swift, and when we 
push it down in one area, it rises in another. That is why we 
must adopt a comprehensive diplomatic push against Iran.
    In Latin America, for example, the Iranian regime is 
seeking to circumvent its isolation and the sanctions directed 
against it. We are leading opposition to the Iran/Argentina 
Truth Commission, which is a sham ``reinvestigation'' of the 
1994 Buenos Aires bombing, despite Iran's clear culpability for 
this atrocious attack.
    I look forward to hearing from our panelists today on these 
important questions.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, ma'am.
    And now we are pleased to introduce our witnesses. First we 
welcome Dr. Matthew Levitt, senior fellow and director of the 
Stein Program on Counterterrorism and Intelligence at the 
Washington Institute for Near East Policy. Dr. Levitt has 
served a long and distinguished career working to counter 
international terrorism, having served as Deputy Assistant 
Secretary for Intelligence Analysis at the Department of 
Treasury from 2005 to 2007 and, prior to this, at the FBI as a 
counterterrorism intelligence analyst.
    Thank you for your service, Dr. Levitt.
    Next we welcome Mr. Michael Braun, who in 2008 retired from 
the Drug Enforcement Agency as Chief of Operations, Assistant 
Administrator after serving a 33-year domestic international 
law enforcement career. During this time he used his expertise 
in the confluence of drugs and terror to lead the DEA's 
expansion in Afghanistan from 2004 to 2008, and served as Chief 
of Staff for the Minister of the Interior, Coalition 
Provisional Authority in Iraq. Mr. Braun is a Vietnam veteran, 
like my hubby, having served--enlisted in the Marines in 1971 
as an infantryman. Hooah.
    Then we welcome Mr. Eric Farnsworth--did I do okay?
    Mr. Farnsworth. Perfect.
    Ms. Ros-Lehtinen. Thank you. Vice president of the Council 
of the Americas and Americas Society. Mr. Farnsworth is an 
expert in various issues affecting U.S. relations in the 
Western Hemisphere, including economic development, trade, 
energy, security, and democracy. He has served in various 
government positions involving Western Hemisphere and trade 
issues, including at the State Department's Bureau of Western 
Hemisphere Affairs, the Office of the U.S. Trade 
Representative, and as a senior advisor to the White House 
Special Envoy for the Americas during the Clinton 
administration.
    We have quite a set of panelists here today, and, 
gentlemen, we will begin with Dr. Levitt. We are about to vote, 
and unfortunately, we have a three-vote series, and then 10 
minutes motion to recommit, and then seven votes after that, so 
we will be gone for a while. Make yourself comfortable.
    We will start with Dr. Levitt.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR AND SENIOR FELLOW, 
    STEIN PROGRAM ON COUNTERTERRORISM AND INTELLIGENCE, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Levitt. Thank you so much.
    Chairwoman Ros-Lehtinen, and Ranking Member Deutch, 
Chairman Salmon, and Ranking Member Sires, distinguished 
members of both subcommittees, it is an honor to appear before 
you this afternoon to discuss Iran's presence in the Western 
Hemisphere, and, of course, it is an honor to share a dais any 
time with Eric and Mike.
    On the one hand, the State Department's recent report on 
Iranian activity and influence in the Western Hemisphere, 
played down Iran's activities in the region; on the other, the 
authors of the report themselves conceded in the unclassified 
annex of the report that some of their conclusions were 
actually based on certain assumptions. That is their word. One 
assumption noted that, and I quote, ``Iranian interest in Latin 
America is of concern.'' Yet another stated that as a result of 
U.S. and allied effort, and I quote, ``The Iranian influence in 
Latin America and the Caribbean is waning.''
    In fact, Iran not only continues to expand its presence and 
bilateral relationships with countries like Cuba, Ecuador, 
Nicaragua, and Venezuela, but reportedly also maintains a 
network of intelligence agents specifically tasked to 
sponsoring and executing terrorist attacks in the Western 
Hemisphere.
    Iran and Hezbollah both have worked long and hard over many 
years to build up their presence and influence in Latin 
America. In my written testimony I provide a good deal of 
background on Hezbollah and Iran's bombing of the AMIA Jewish 
Community Center in Buenos Aires 19 years ago last month. I 
included for your reading pleasure an excerpt on the AMIA 
bombing from my new book, and detailed Iran's role in the 
attack, including funding it, providing cover to operatives, 
using diplomats and front organizations, and more.
    But as it happens, the same day that the State Department 
released its controversial report, Alberto Nisman released his 
500-page document laying out how the Iranian regime has, since 
the 1980s, built and maintained, and I quote, ``local 
clandestine intelligence stations designed to sponsor, foster, 
and execute terrorist attacks in the Western Hemisphere.'' 
Nisman found that Iran continues to build intelligence 
networks, identical to the one responsible for the bombings in 
Argentina, across the region, from Brazil, Paraguay, Uruguay, 
Chile, and Colombia to Guyana, Trinidad, and Tobago, Surinam, 
and more. It concluded, and I quote, ``In other words, the AMIA 
bombing did not constitute an isolated event.''
    The driving force behind Iranian activities in the region 
at the time of the AMIA bombing was Mohsen Rabbani, who 
reportedly continues to engage in Iranian intelligence work 
focused on the Western Hemisphere today.
    Nisman pointed to the trial of four men in the Eastern 
District of New York who plotted to bomb the JFK airport in 
2007. Rabbani offered to help the men connect with Iranians. 
They sought technical and financial assistance from Iran for 
the operation, which was code-named ``Chicken Farm.'' All four 
men were ultimately convicted in Federal court. Documents 
seized from one of the coconspirator's home in Guyana 
demonstrated that he was a Rabbani disciple who built a 
Guyanese intelligence network for Iran much like his mentor had 
built in Argentina.
    In 2011, not long before the last defendant in the JFK 
airport bomb plot was convicted, evidence emerged suggesting 
Rabbani was still doing intelligence work in South America. In 
the words of one Brazilian official, ``Without anybody 
noticing, a generation of Islamic extremists is appearing in 
Brazil.''
    In addition to Nisman's reports, other branches of the U.S. 
Government have reached very different conclusions from the 
State Department. This March, General Kelly from SOUTHCOM 
testified, and I quote, that ``members and supporters of Iran's 
partner, Lebanese Hezbollah, have established presence in 
several countries in the region. The Lebanese Shi'a diaspora in 
the region may generate as much as tens of millions of dollars 
for Hezbollah through both illicit and licit means.''
    The U.S. Treasury Department, too, has thoroughly detailed 
Iranian activity in the Western Hemisphere in several recent 
designations in their press releases, and, of course, these 
include, bank sanctions for banks in Venezuela, that are 
helping Iran evade sanctions; June 2002 designation of 
individuals involved in the drug kingpin network of Ayman 
Joumma, who is tied to Hezbollah--Joumma himself had been 
designated in January 2011--and more.
    And then there is Iranian President Mahmoud Ahmadinejad's 
visit to Venezuela in January 2012, which seemed rather 
unremarkable beyond his normal inflammatory personality, but 
then, according to Western intelligence officials cited by 
ProPublica, a senior officer in the Iranian Revolutionary Guard 
Corps secretly traveled with the Presidential delegation to 
meet with Venezuelan military and security chiefs and to set 
off a joint intelligence program between Iranian and Venezuelan 
spy agencies.
    While the State Department's Iranian activity report 
downplayed Iran's activities in the hemisphere, the 
Department's annual terrorism report separately noted a 
noticeable increase in Iranian activity in all other parts of 
the world. At least some of that activity has been here in the 
Western Hemisphere. Just last week, for example, seven Iranians 
were caught using fake Israeli passports at the Vancouver 
International Airport.
    The growth of the Iranian extremist network in the Western 
Hemispheres has immediate repercussions for the security of the 
United States. The same day that Nisman and the State 
Department released their reports, an Iranian American used-car 
salesman from Texas was sentenced to 25 years in prison for his 
role in an Iranian plot to assassinate Saudi Arabia's 
Ambassador to the United States. The Director of National 
Intelligence assessed that that plot shows that some Iran 
officials, probably including the Supreme Leader himself, have 
changed their calculus and are now more willing to conduct an 
attack in the United States in response to real or perceived 
U.S. actions threatening their regime.
    The bombing of the bus in Burgas a year ago last month was 
what spurred the European Union to even consider banning even 
just the military wing of Hezbollah, but that occurred on July 
18th. Eighteen years ago that was the same day of the bombing 
of the AMIA center, which means that this hearing is well timed 
indeed.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much.
    [The prepared statement of Mr. Levitt follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Braun.

  STATEMENT OF MR. MICHAEL A. BRAUN, CO-FOUNDER AND MANAGING 
  PARTNER, SPECTRE GROUP INTERNATIONAL, LLC (FORMER CHIEF OF 
          OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION)

    Mr. Braun. Thank you. Good afternoon, Chairman Ros-
Lehtinen, Chairman Salmon, Ranking Member Deutch and Sires, 
honorable members of both subcommittees. Thank you for the 
opportunity to participate in this very, very important hearing 
today on Iran's growing influence in the Western Hemisphere, 
Africa, Europe, and Asia, Mr. Chabot, on the recent Department 
of State report that addresses the matter.
    It is hard to talk about what we don't know with respect to 
this threat. So let us focus on what we do know, some of which 
you already talked about. But let me provide you a little bit 
more granularity that I think will be even more shocking to the 
statements that have already been made by many.
    So let us talk about the facts. Let us talk about the 
evidence that can, and already has, passed the judicial test in 
Federal courthouses right here in the United States. Let us 
talk about Hezbollah's growing involvement in the Western 
Hemisphere, in Africa, Asia, and elsewhere; Iran's most 
important terrorist proxy, as you have said. And let us talk 
about the RGC's Quds Force and what they have been up to, more 
specifically, or most specifically, in the Western Hemisphere 
over just the past few years.
    Just about 18 months ago, as you have said, Quds Force 
operatives were attempting to assassinate the Saudi Arabian 
Ambassador to the U.S. right here in Washington, DC; in fact, 
just a few blocks from the White House. They thought they were 
recruiting members of the ultraviolent Los Zetas drug cartel in 
Mexico, which should be shocking in and of itself. Fortunately, 
they were recruiting DEA operatives, and the DEA and the FBI 
foiled that plot.
    The Hezbollah, a U.S.-designated foreign terrorist 
organization, partially at least also designated by the E.U. 
now, is heavily involved and has grown heavily involved over 
the past few years in the global cocaine trade, and it is 
involved heavily at the center of gravity for that activity. 
The center of gravity has always been, and always will be, the 
Andean region of South America and the transshipment routes 
that permeate and has been built over many years encompassing 
the north coast of Colombia and Venezuela, the isthmus of 
Central America, the Caribbean, and Mexico.
    A growing number of international conspiracy investigations 
as a result of that activity by U.S. Federal law enforcement 
paint an ominous picture of Hezbollah's presence in the Western 
Hemisphere and elsewhere.
    Just one dimension of just one DEA investigative effort 
against Hezbollah focuses on the money-laundering aspect of 
their cocaine-trafficking activities, and resulted in the 
seizure of $150 million by the Departments of Treasury and 
Justice just about a year and a half ago. The Beirut-based 
Lebanese Canadian Bank, long known to be heavily influenced by 
the Hezbollah and their preferred go-to money-laundering 
financial facility, just recently settled with the Department 
of Justice as a result of that action, and the bank has agreed 
to forfeit $102 million. The bank was sold about 2 weeks after 
the PATRIOT Act 311 sanctions against that organization that 
were a result of the DEA and DOJ investigations.
    A more granular example, and I think even more shocking, 
though, is what is playing out, again, at a lower level, at a 
tree-top level, Congresswoman, as your husband would probably 
say being a former marine, at a tree-top level, granular level, 
with the $20 million cash seizure made by the DEA and some 
foreign counterparts in Central America after a high-level 
Hezbollah associate actually delivered the bulk cash, $20 
million, to an undercover DEA agent who was posing--who, by the 
way, spoke fluent Arabic and was posing as a money launderer. 
Remarkably, another $16 million was supposed to have been 
delivered within 48 hours. Unfortunately that did not happen. 
The investigation was compromised, and I think is still being 
looked at. But suffice it to say that so much Hezbollah cocaine 
cash, bulk cash, was being amassed in Central America that they 
couldn't figure out how to move it back to Lebanon--or to move 
it to Lebanon.
    Evidence clearly shows that Hezbollah is involved in the 
same kinds of activity that I have just described in Central 
America, in Africa, and other locations, as my statement for 
the record states. If anyone thinks for a moment, because there 
are some inferences in the Department of State report, that 
Hezbollah is on the rocks because they are reliant on funding 
from Iran, if anyone thinks for a moment that that is the case, 
they couldn't be further from the truth.
    We have to look at things differently. It is the kind of 
criminal activity that I have just described above via 
Hezbollah, Iran's most important proxy, and other terrorist 
organizations that make them organizationally and operationally 
sharp while they wait for the day of reckoning. It prepares 
them for war under very realistic conditions. It provides them 
with a real-world proving ground to continually test and refine 
their tactics, techniques and procedures as they continue to 
probe and prod those of their adversaries; namely, us. It is 
allowing them to prepare and shape the future battlefield right 
here at home. We need to somehow work harder at driving a wedge 
between these very powerful forces and keeping them separated.
    Thank you very much. I look forward to answering your 
questions.
    Ms. Ros-Lehtinen. Thank you very much.
    [The prepared statement of Mr. Braun follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Farnsworth.

 STATEMENT OF MR. ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF 
               THE AMERICAS AND AMERICAS SOCIETY

    Mr. Farnsworth. Thank you, Madam Chairman, and Mr. 
Chairman, and ranking members, also members of the 
subcommittees, for this opportunity. I join my colleagues in 
expressing appreciation, and I thank you for the opportunity to 
testify with them as well.
    The State Department's recent report on Iran's presence in 
the Americas, as has already been mentioned, reminds us that 
Iranian interest in Latin America is of concern. Of course, we 
are dealing with imperfect information that is by its very 
nature shrouded, much of it classified or even unknown. What 
remains clear is this, however: Nations in the Americas that 
disrespect democratic principles tend also to be nations that 
offer aid and comfort to global actors who reject the norms of 
the international system.
    The best example of course, is Cuba, as you, Madam 
Chairman, and others, Mr. Sires, have clearly mentioned over 
many years, and we have seen that again as highlighted by the 
discovery in July of missiles and other weapons parts going 
through the Panama Canal intended for North Korea.
    It is also a fact that ungoverned regions within countries 
offer permissive environments for mischief making, and a weak 
inter-American system offers little in terms of the ability to 
counterbalance extralegal or threatening acts from outside the 
region.
    Those countries where democracy is challenged, where the 
institutions of the state are ineffective, or where 
democratically elected leaders have curtailed sound democratic 
practices for their own purposes have proven to be the most 
likely portal through which unhelpful influences such as Iran 
are introduced into the region. Indeed, it was former 
Venezuelan President Hugo Chavez's intentional pursuit of 
Tehran and Tehran's simultaneous need for allies that brought 
the two nations closer together and encouraged Iran to develop 
deeper ties with Bolivia, Ecuador, and Nicaragua. Venezuela's 
aggressive efforts to midwife Iran's political and diplomatic 
entry into the Americas through reciprocal leaders' visits, 
trade and commercial agreements, including direct air links, 
and friendly votes in bodies such as the United Nations and the 
International Atomic Energy Agency have been polarizing and 
counterproductive.
    The State Department report indicates that Iranian 
influence in Latin America and the Caribbean is waning. If so, 
in my view, that is largely due to the changing leadership 
matrix in the Americas, and potentially in Iran itself, in 
addition to the actions by the United States and its regional 
allies that the report describes. It is certainly possible that 
the death of Chavez will diminish Latin America's appetite for 
Iran. It is also possible that despite the benefits to Iran 
that have clearly accrued from deepened relations in the 
Americas, the inauguration of new leadership in Iran may also 
diminish that country's interest in the Americas; although 
support for Hezbollah activities, particularly in fundraising 
and money laundering, as we have heard, will certainly 
continue. This is something we need to watch carefully.
    However, if the bilateral relationship has been 
institutionalized to the point that it outlasts both Chavez and 
the outgoing Mahmoud Ahmadinejad, and we have heard that it 
indeed is, it is also possible for the leaders, such as 
Venezuela's Nicolas Maduro, in attempting to build his own 
international profile and authority as Chavez's rightful heir, 
may seek to develop the relationship further. This should be 
anticipated and steps taken in advance to limit the success of 
any such initiative.
    For the United States several actions are therefore 
appropriate in order to inoculate the hemisphere from further 
Iranian adventurism. First, we should continue to be watchful 
regarding Iranian influence in the Americas, while taking care 
not to act on incomplete information unnecessarily, or to take 
steps precipitously. Communication and coordination with our 
friends and allies in these matters, particularly law 
enforcement entities, is critical of course, as we work 
together to build an expected norm of responsible democratic 
behavior in the hemisphere. Sanctions against offending 
individuals and entities should continue to be employed.
    Second, we should continue to emphasize the hemispheric 
growth agenda, including trade and investment expansion, and 
the rule of law, which will help build strong and expanding 
middle classes and reinforce just, transparent societies that 
are less prone to authoritarian manipulations from elected 
leaders of any ideology.
    And finally, despite efforts to build democracy elsewhere 
around the world, the United States cannot be complacent about 
such matters closer to home. Democracy offers no guarantees, 
but we stand a much better chance of achieving our strategic 
goals in the hemisphere, including a peaceful, growing, vibrant 
region that works in tandem with us to address issues of common 
concern and rejects outside meddling, if democratic 
institutions in the Americas are strong.
    That requires doing the difficult work of democracy 
promotion, building institutions including separation of powers 
and electoral systems where the legitimate opposition has equal 
chance of contesting elections as government candidates do. It 
requires civic education efforts that inculcate democratic 
expectations among populations in order to reject the creeping 
authoritarianism that some democratic leaders have shown. It 
requires the United States to find its voice through more 
active and effective diplomacy to promote regional democracy.
    We need regional partners in this effort, but U.S. 
leadership will continue to be required. To the extent the 
United States is able to come alongside Latin America and the 
Caribbean to offer meaningful steps on a shared agenda, we will 
find that regional leaders may then reciprocate by becoming 
more actively engaged in support of U.S. priorities, one of 
which clearly must be to keep Iran and other malignant 
influences out of the Western Hemisphere.
    So I want to thank you again, Madam Chairman, Mr. Chairman, 
Ranking Members, for the opportunity, and I look forward to 
your questions.
    [The prepared statement of Mr. Farnsworth follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, gentlemen, and as a 
Cuban-born political refugee, I always say I never mind when I 
get interrupted by democracy at work. So with our deepest 
apologies, we have 1 minute and 47 seconds left to go vote, and 
if you could stick around and answer questions, we won't be 
back until about an hour and a half. Democracy is like making 
sausage: It is not pretty, and it is long. So if you can stick 
around, we would welcome you. If not, we will ask one of you 
who can stick around.
    And with that--so I don't want to impose upon you because 
it will take a while; a series of votes and a motion to 
recommit. So with that, our subcommittee will be adjourned, and 
we hope to hear also from Mr. Deutch's opening statement when 
we return.
    Mr. Deutch. Great.
    Ms. Ros-Lehtinen. All right. See you later. Hasta luego.
    [Recess.]
    Ms. Ros-Lehtinen. The committee will once again resume. We 
have Mr. Meeks, and thank you, sir; and Chairman Salmon. So I 
will begin with my question.
    In the memo that we prepared for the members, it says here, 
Iran has 11 Embassies in the Latin America and Caribbean 
region, and you have all mentioned that. Since 2005, it has 
opened Embassies in Bolivia, Chile, Colombia, Ecuador, 
Nicaragua, and Uruguay. This was in addition to existing 
Iranian Embassies in Argentina, Brazil, Cuba, Mexico, and 
Venezuela. Former SOUTHCOM Commander General Douglas Fraser 
testified to Congress in March 2012 that Iran has 36 Shi'a 
cultural centers in 17 countries throughout Latin America.
    I think if more people in the United States knew this, they 
would be shocked, because usually Embassies are there to 
process visas for folks who want to travel, along with many 
other things. Some have called our Embassies ``islands of 
democracy,'' so I like that. Certainly that term cannot be 
applied to Iranian Embassies, and I can't imagine that there 
are many Latin American citizens who in and of themselves would 
have decided, hey, I know where we should vacation. Let us take 
the kids and go to Iran.
    So one has to wonder, what are these 11 Embassies in Latin 
America and the Caribbean region doing, and what are these 36 
Shi'a cultural centers in 17 countries throughout Latin America 
doing? How good is our information on this? How many people are 
in these Embassies or cultural centers, because certainly they 
have got to be dens of plotting anti-American activities, anti-
Semitic acts. And I wanted to ask our esteemed witnesses what 
your thoughts are about the Shi'a cultural centers sponsored by 
Iran and about the 11 Embassies in Latin America and the 
Caribbean.
    We will start with Dr. Levitt.
    Mr. Levitt. Thank you so much.
    The most honest and accurate answer to your question is we 
don't know, certainly in the open source, and my sense is that 
there is an intel gap, too, as to exactly how many people and 
exactly what are they up to. But there is precedent, and the 
precedent, while not necessarily giving enough detail to answer 
for today, is telling.
    Again, if we go back to AMIA, we have detailed 
documentation of Iranian front companies, Iranian use of 
Iranian-built and -funded mosques, of the cultural centers, of 
import-export companies, travel offices, all of which were put 
to use for either operational logistical purposes or for 
espionage. Rabbani, for example, recruited a whole bunch of 
people in Argentina from within the Shi'a community. Others 
were Iranians who were employed at the Embassy under diplomatic 
cover. He himself got diplomatic cover just weeks before the 
bombing. And some of these people were referred to by members 
of the community as his, that is to say Iran's, antennas, 
because it was well known that this is what they were doing.
    The real question for me also is not just the number, but 
in certain locations. I have been told that in certain 
locations there is very large Embassies completely out of 
proportion to Iran's business or other interests in the 
country, in some very small countries, and that is something 
that we need to be concerned about.
    So some of the suggestions I have offered to Congress 
before on this is, you know, Iranians are allowed into this 
country because of their diplomatic presence in New York, but 
their travel is severely limited. What they can do is severely 
limited. And we should be pressing our allies in South America 
to do the same. You don't necessarily have to shut down the 
Iranian diplomatic missions, but you do need to keep them to a 
certain size. We should convince them to limit their travel, 
limit the kind of meetings they can hold, because clearly there 
is stuff happening out of these facilities that goes above and 
beyond what would be considered normal diplomatic activity.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Braun.
    Mr. Braun. Thank you, ma'am.
    You know, what is going on, as Matt said, you know, we 
don't really know. What concerns me most, though, is the 
Embassies, the cultural centers all provide cover, top cover, 
for the growing presence of the Quds Force, the IRGC Special 
Forces that are responsible for foreign operations, clandestine 
operations, which include assassinations. We talked about that 
earlier with the recent attempt on the Saudi Ambassador to the 
U.S., his life, here in Washington, DC.
    What also worries me, and, you know, I lose sleep over 
this, is this concurrent growing presence of not just Quds 
Force, but, again, concurrently of Hezbollah all over Latin 
America, the Caribbean, and in some other parts of the world. 
You know, what exactly it means, I am not sure, but after 38 
years in this business, it is not good. And, you know, I 
learned over many years to rely on my sixth sense, and my sixth 
sense again says, you know, this is potentially, you know, a 
disaster that is looming over our head, and we better get 
serious about addressing it.
    Ms. Ros-Lehtinen. So you see a military tinge to this?
    Mr. Braun. Absolutely.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Farnsworth.
    Mr. Farnsworth. Well, just very briefly, it is curious that 
this increase in activity, increase in personnel, increase in 
connection, if you want to put it that way, has been fairly 
recent. I mean, Iran's relations in the Western Hemisphere 
actually go back quite a ways because of agricultural links and 
energy links and all that, but what currently exists seems to 
far outweigh certainly the traditional relations that Iran has 
had in the region, and they do seem to have tracked with a 
certain political emphasis that the Iranians have had in the 
Western Hemisphere, largely, again, in my view, brought into 
the region in that way through the Chavez regime in Venezuela.
    Ms. Ros-Lehtinen. Thank you very much, gentlemen.
    Mr. Meeks?
    Mr. Meeks. Thank you, Madam Chair.
    Let me just ask, just out of curiosity, it seems as 
though--and I know Mr. Farnsworth has said that they had this 
agricultural, et cetera, but it seems like that Iran's 
activities in the Western Hemisphere really grew in 2005 with 
the election of Ahmadinejad. And is it likely that Iran's 
strategic objectives in the Western Hemisphere--I am just 
throwing this out--will change, or do you think it will be the 
same under this President Rouhani, which happens to, you know--
and what happens to the relationship that Ahmadinejad may have 
fostered? Do you think that is going to change? Does it have 
anything to do with Ahmadinejad, or do you think that, you 
know, the same kind of thing is going to continue?
    Mr. Levitt. First of all, while they might have increased 
under Ahmadinejad, the relationships go back to the 1980s, and 
especially agricultural issues, importing beef and chicken. 
And, in fact, when the Government of Argentina in the 1990s 
cancelled a nuclear agreement with Iran because of concerns 
that Iran's nuclear program might not be peaceful--sounds 
familiar--Iran threatened to cut off all of this significant 
economic contact.
    But I worry that people have too much hope for this new 
President Mr. Rouhani. He is considered a moderate, but I 
include in my written testimony some declassified intelligence 
over the past years on the CIA's assessment of past Iranian 
Presidents who were considered moderate, Rafsanjani and Khatami 
in particular, and they are noting at the time that while these 
people were moderate in some ways, their support for the 
nuclear program and their support for terrorism waned not one 
bit. And indeed, if there were a President who might be 
inclined to tamper down support for terrorism, which doesn't 
seem to be the case, but if there were such a President, the 
President would not have the authority to do it, only the 
Supreme Leader would.
    Mr. Meeks. One of the reasons why I asked the question, 
because I think you are right in that regard, but there was a 
relationship prior to Hugo Chavez, and I am nervous, and as 
well as the fact that, you know, when you look at Ahmadinejad, 
there was a lot of false promises he made to individuals there; 
for example, the billion dollars that he promised to Daniel 
Ortega that Daniel Ortega never got, you know. And I think one 
of you testified to the fact that there is new leadership that 
is being elected in Central and South America, and the new 
leadership will look at some of those issues, I think, also, 
and could that cause them to look at differing the ties, those 
that even may have ties now, with Iran. What do you think? Give 
me your thoughts on that, Mr. Farnsworth.
    Mr. Farnsworth. Well, thank you very much, and thank you 
for your continued leadership, Mr. Meeks, on Western Hemisphere 
issues as well.
    I think that is something that we are watching very 
carefully. What we saw is really interesting. For example, in 
Brazil, when the previous President Lula da Silva was in power, 
you saw a state visit of the Brazilian leader to Tehran in 
2010. You saw some outreach that was certainly uncomfortable 
for the United States and other Western countries, if not 
counterproductive. But since the election of Dilma Rousseff a 
couple of years ago, she has changed Brazil's posture with 
reference to Iran. She has actually spoken out against the 
Iranian regime. And I think that is the type of thing we have 
to take seriously in terms of the Western Hemisphere.
    There are political changes under way. We don't know where 
Nicolas Maduro is going to take Venezuela, but he has a lot of 
very difficult domestic political issues he has to resolve 
right now, and I think we can assume that at least in the near 
term he is not going to strike the same international posture 
with Iran that Hugo Chavez did because he has got a lot of 
political difficulties at home he has got to deal with to 
solidify his own base.
    In my view, again, the reason why Iran took advantage, and 
I do put it that way on purpose, of the Venezuelan invitation 
into the Western Hemisphere to really bolster their presence 
was they saw a target of opportunity, and for his own purposes 
Hugo Chavez really wanted to portray himself and build himself 
as the anti-imperialist, anti-American, anti-Western country, 
and in order to do that, he had to make common cause with some 
real rejectionist powers around the world, and so he actively 
pursued the Iranians. They saw a target of opportunity. They 
went in, they have moved aggressively.
    Now we have got a leadership change in Caracas. We don't 
know what is going to happen, but we do have to watch it 
carefully, and I think we can look at similar changes that may 
be under way with other elections in the region. That is one 
reason why I think it is so important that as a hemisphere 
community we continue to focus on democracy development, and 
one of those aspects----
    Mr. Meeks. With that, because I have a limited amount of 
time, democracy development, is there a role for the OAS in 
this, in trying to help and work together?
    Mr. Farnsworth. Absolutely. And I think one of the--what 
happens when leaders, even if they are serially reelected, if 
they remain in power for year after year after year, that can 
deepen actually those relations with Iran that a new President 
may not, in fact, find in his or her interests. And so that 
change at the top through democratic processes, I think, is, 
first of all, on its face an important aspect of democracy, but 
in the concept of national security, that also has important 
dividends to pay. And I think from that perspective absolutely 
the OAS has to be a part of that, and that is why I would like 
to see a more robust posture of the OAS toward things like 
election monitoring, and democracy development.
    And you have mentioned a couple countries; I would mention 
similar ones. But we are approaching now another round of 
elections in the Western Hemisphere in many countries. This 
year and next year it is going to be really important that 
democracy and the electoral process remains clean, open and 
transparent, and that the opposition has a legitimate chance to 
actually contest for those elections.
    Ms. Ros-Lehtinen. Thank you, Mr. Meeks.
    I think the OAS is there to make the Senate look like an 
active body, but we shall see.
    My friend, my colleague Chairman Salmon is recognized.
    Mr. Salmon. Thank you very much, Madam Chairman.
    Okay. So the statutorily required report that State 
Department recently rendered says that the influence of Iran is 
waning in the Western Hemisphere. As I listened to the 
testimony given today, I sure don't sense that you echo that 
sentiment that it is waning.
    And so my first question would be--and I am calling for 
speculation, okay? So you can't say, I can't speculate. I want 
you to speculate. Why the report that kind of glosses over 
everything, why do you believe--what could be the motivation, 
or was it just that they looked at the wrong criteria? Anybody 
care to take it on?
    Mr. Levitt. My colleagues will be happy to throw me under 
the bus and let me go first.
    I asked the same question you did, and I asked a lot of 
people around town, and I am convinced that this is an 
unexcusable classic example of left hand-right hand. My 
understanding is that the people who wrote this report did not 
in a timely manner consult with people who would have the 
information. Those people, both within the Department and 
elsewhere, are quite upset that they were not properly 
consulted. It is my understanding that the State Department as 
such, the building, does not agree with everything in this 
report. There are parts of the building that are quite upset 
with it. And those agencies and departments who have 
information that might have been able to be used in this 
report, I think, are quite annoyed.
    I haven't--I no longer have my clearances, I didn't see the 
classified version, but the unclassified version appears to 
have been written by an intern.
    Mr. Salmon. By an intern?
    Mr. Levitt. By an intern.
    Mr. Salmon. I hope it is an A student intern.
    Mr. Levitt. Well, I wouldn't have given it an A.
    Mr. Salmon. An incomplete?
    Mr. Levitt. I don't think it is complete. And even the 
report itself indicates that some of the key points, the 
conclusion, if you will, that Iran's activities are waning was 
itself put in the unclassified version at the very top under a 
section labeled ``Assumptions.''
    Mr. Salmon. Thank you.
    Anybody else? I don't want to get you in any trouble, but I 
really am interested.
    Mr. Braun. Listen, I don't think you are going to get any 
of us in trouble, but I would echo what Matt said. I think that 
the report obviously was written in a vacuum. I don't think 
that the authors physically met with probably some of the most 
important players in town who aren't going to typically--and I 
spent 33 years in government, so I have got a sense for how 
this stuff works.
    You know, a lot of this can't be answered, you know, in 
open emails and that kind of thing. You ultimately have to 
reduce them to classified reporting to respond to--you know, to 
the questions or the inquiries that are coming in. So----
    Mr. Salmon. Kind of like garbage in, garbage out?
    Mr. Braun. Well, there you go, left hand-right hand.
    Mr. Salmon. Right.
    Mr. Braun. You know, another analogy.
    You know, I think it was poorly put together, I think it 
was done so, just the unclassified piece of it. I have still 
got my clearances, but I don't have a direct need to know, so I 
did not read the classified side of this either.
    You know, suffice it to say I think it was poorly written 
by unseasoned probably analysts that contributed, and I would 
sense that there wasn't strong leadership involved as well, 
and, again, I base that not on direct knowledge, it is very 
much speculation, but that is based on 33 years in government.
    Mr. Salmon. And that is what I asked for.
    Did you care to make a comment?
    Mr. Farnsworth. No.
    Mr. Salmon. Okay. I have one other question. Given the many 
other ways in which Argentina is emulating Venezuela's 
behavior, including its crackdown on the independent press, on 
the judiciary; its uncompensated nationalization of private 
assets; its defiance of U.S. and international legal judgment; 
its warming relations with other rogue nations, how far do you 
think Argentina is willing to go to work with Venezuela to 
continue increasing Iran's ability to evade sanctions?
    Mr. Braun. Well, I think the question should be not only 
Argentina, but how far is Ecuador going, how far is Bolivia 
going, how far is Paraguay going? And, in my mind, I think you 
can take this back to, you know, pre--even pre-9/11, the pre-9/
11 era when we packed up SOUTHCOM and moved from theater. You 
know, we moved SOUTHCOM to Miami. And Miami is a wonderful 
place. Miami is a wonderful place, and just recently visited 
again, but, you know, we don't have--and then couple that, Mr. 
Salmon, with the fact that post-9/11 well over 60 percent of 
our military's detection and monitoring assets packed up and 
moved to other parts of the world, and they have never 
returned. And you had a diminished or, I should say, a 
decreased level of Federal law enforcement presence in theater, 
and our intelligence services because they also went to other 
parts of the world, and look at what has happened.
    I mean, should this be any surprise to anyone? I think not. 
But it is something that I believe we can turn around. I don't 
think it would cost us an enormous amount of money to do. But I 
will tell you, we better get focused on this at some very high 
levels before it bites us in the posterior.
    Mr. Salmon. I have run out of time. I will yield back.
    Ms. Ros-Lehtinen. Thank you very much. Excellent questions.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman. And, Madam Chairman, 
if it is okay, I would like to ask unanimous consent to enter 
my opening remarks into the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Deutch. Thank you to the witnesses for coming and 
staying.
    One of my concerns about Iran's role in the region is that 
it is increasingly attempting to use the relationships there as 
a mechanism for circumventing sanctions. And I am increasingly 
concerned about Ecuador, which I don't think we have had a 
chance to discuss yet today. Not only has Ecuadorean President 
Rafael Correa repeatedly reaffirmed his support for Iran, but 
Ecuador and Iran have attempted to establish illicit banking 
channels, and, perhaps most importantly, Ecuador's currency is 
the dollar. So our Iran sanctions regime has gone to great 
lengths to ensure that Iran does not have access to the dollar, 
but essentially any trade with Ecuador has the potential to 
undermine that. Therefore, given that we know that Iran often 
fails to follow through on their public promises, how 
significant is their bilateral trade, number one? What impacts 
could that have on our sanctions regime? And what should the 
U.S. be doing now to stop that? I would throw that out to any 
of you that would like to answer.
    Mr. Farnsworth. Well, thank you for the question, Mr. 
Deutch, and let me simply say if I can that I think this has 
been one of the most troubling aspects of Iran's entry into the 
Western Hemisphere, if you want to put it that way, the ability 
or the effort to evade international sanctions, no question 
about it. I would point to some of the financial issues that 
you did. I would point to the offers of gasoline from Venezuela 
that should clearly be in violation of international sanctions 
against Iran. And more importantly even than that, in my view, 
is the political imprimatur that relations with some of the 
countries in Latin America has given the Iranian regime as a 
legitimate global player.
    And this is a real problem when you are trying to create an 
international regime in a political science sense or an 
international institution of sanctions against a certain 
country to have other countries that willfully go out of their 
way to try to create avenues to break those sanctions. And I 
think some of the things you pointed to, we have seen reports 
of financial relations with Ecuador, and we have seen certainly 
some sanctions that the U.S. Government has taken against 
financial entities in Ecuador as well.
    I think those have to be watched very, very carefully. I 
haven't seen the classified information around some of those 
activities, but I would suggest that the ability to circumvent 
some of the international sanctions by Iran certainly is one of 
the most troubling aspects of this whole scenario.
    Mr. Deutch. And before seeking your input, gentlemen, just 
to follow up a bit, in 2008, the Central Bank of Ecuador agreed 
to accept $120 million in deposits from the Export Development 
Bank of Iran, which Treasury sanctioned for advancing Iran's 
WMD programs. In 2012, another state-owned Ecuadorean bank 
opened corresponding accounts with sanctioned Iranian banking 
institutions through a state-owned Russian bank. There have 
also been discussions of clandestine selling of the Ecuadorean 
bank to sanctioned Iranian banks.
    Obviously, this is all incredibly disconcerting, but the 
question is whether this type of behavior is a trend that we 
should anticipate. Iran trying to move into the region and what 
we have seen here in Ecuador, should we expect that they are 
going to try to replicate that throughout the region?
    Mr. Levitt. Yes, in a nutshell. Ecuador may be unique 
because of the nature of the regime's interest in sticking its 
finger in Washington's eye and because it is based on the 
dollar, but we should expect to see more of this.
    The good news is that we actually have a whole lot of tools 
at our disposal for trying to deal with such behavior up to and 
including 311 action, and 311 action can be used, by the way, 
not only against a bank, as it has been used in the past. It 
can be used against a jurisdiction, it can be used against a 
country, it can be used against a part of a country, it can be 
used almost against any type of entity you can imagine. There 
are lots of ways, and before you use it, of course, it is 
diplomatic leverage to say you are considering such use. That 
would be devastating for the country in question, and so there 
are lots of ways to go about trying to convince them to change 
their behavior.
    Mr. Deutch. Mr. Braun?
    Mr. Braun. You know, I would, I think, a bit more 
forcefully just add to what I said earlier. I mean, what is 
happening in Ecuador is not uncommon. You know, we are seeing 
it play out through not only all of Latin America or much of 
Latin America, but we are also seeing it play out in West 
Africa, North Africa, and throughout Europe now.
    I don't want to--you know, listen, I am the former Federal 
narcotics guy on this panel, and I don't want to oversimplify 
it, but, sir, you missed a little bit earlier my opening 
comments. The Hezbollah is now responsible for generating 
hundreds of millions of dollars of revenue, contraband revenue, 
each year because of their expanding and growing involvement in 
the global cocaine trade, and all of the places that I have 
just discussed, not strangely it is pretty evident in my eyes 
after 33 years in this business it lines up perfectly. And, you 
know, when you factor in some other things, you know, that I 
have mentioned here, you know, the concurrent growing expansion 
of Quds Force and Hezbollah--let us never forget that it was 
the Quds that stood them up. They came up with the concept, 
they stood them up, they developed them, they have nurtured 
them over many, many years, and many experts now believe that 
it is the Quds that actually manage and direct some of the 
Hezbollah's more sophisticated activities around the globe.
    You know, it is all part and parcel of this growing 
confluence between the international drug trade and other 
transnational criminal activity and terrorist organizations. 
The President himself has remarked about this on several 
occasions recently, you know, that he and the White House have 
seen this growing confluence, and, you know, we have to do a 
better job at, again, driving a wedge between these very 
powerful forces as they come together.
    We are drifting further apart, the good guys, quite 
frankly, in this town. You have got counternarcotics 
strategies, you have got counterterrorism strategies, and the 
two are not interlocking. The funding streams are absolutely 
separated; there are no singular funding streams. We have got 
to have interlocking strategies. We have got to have singular 
funding streams. As they grow closer together, we are drifting 
further apart. It needs to get turned around.
    Mr. Deutch. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    And I am so pleased to turn to Mr. Duncan, who, as we had 
pointed out, was the author of the bill that called for this 
report. Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairman.
    Isaiah 5:20: What are those who call evil good and good 
evil, who put darkness for light and light for darkness, who 
put bitter for sweet and sweet for bitter?
    I believe the State Department failed in its mission given 
to them by a bipartisan effort of Congress, signed into law by 
President Obama. I believe there was a preconceived or a 
predetermined conclusion, and that justified the methods in 
their report.
    So I have got a few questions, and bear with me, and I will 
start with Mr. Braun.
    Hezbollah was primarily formed in what country? Michael?
    Mr. Braun. Well, Lebanon, but, you know, suffice it to say 
that it was Iran that was managing the--I am sorry. You know, 
Iran, but----
    Mr. Duncan. Primarily Lebanon.
    Mr. Braun. Yeah, Lebanon, but suffice it to say that it was 
Iran that managed and directed every bit of that through the 
Quds Force, the special--you know, the Iran special forces, the 
elite folks that are responsible for global clandestine 
operations.
    Mr. Duncan. It is an Iranian proxy primarily formed in 
Lebanon back in the late 1970s, early 1980s, and has been 
active ever since.
    So the triborder region, primarily a hub for activity of 
what nonforeign terrorist organization?
    Mr. Braun. You have had a long-standing interest on the 
part of Hezbollah, Hamas, and al Qaeda and others in the 
triborder area, the Western Hemisphere's usual suspects, the 
FARC, the Sendero, and others. But, you know, Hezbollah and al 
Qaeda and Hamas have been at work in the triborder area not for 
years, but they have been down there for decades.
    Mr. Duncan. Okay. AMIA bombings, the plan and the op was 
hatched and carried out from where? Dr. Levitt?
    Mr. Levitt. Lebanon, Iran, and then in Argentina, the 
triborder area.
    Mr. Duncan. Triborder area, okay.
    When I met with the Paraguayans in the triborder region, 
they showed and shared with us the Hezbollah activity and as 
well as the Lebanese travel documents that allowed Lebanese 
individuals to come into the triborder region and change out, 
or forge, or change their identity and actually travel 
throughout the South American region, okay?
    Dr. Levitt, you mentioned in a statement on July 9th, a 
Homeland Security hearing that you couldn't attend because you 
were in Europe convincing the European Parliament to do the 
right thing and name Hezbollah as a foreign terrorist 
organization, which thankfully they have done in the last 2 
weeks. I am going to enter, without objection, his testimony to 
the Homeland Security Committee written July 9th.
    Ms. Ros-Lehtinen. Without objection, subject to the length 
limitation in the rules.
    [The information referred to is not reprinted here but is 
available in committee records on the Internet at: http://
www.washingtoninstitute.org/uploads/Documents/testimony/
LevittTestimony20130709-House.pdf.]
    Mr. Duncan. Thank you, Madam Chairman.
    On page 8, Dr. Levitt, you say that--you mentioned the 
Hezbollah activity in Latin America, and you specifically 
reference in at least one instance a highly trained Hezbollah 
operative, Mahmaoud--I pronounced that wrong--Youssef Kourani 
succeeded in sneaking across the border into the U.S. through 
Mexico in the trunk of a car. Kourani paid the owner of a 
Lebanese cafe in Tijuana $4,000 to smuggle him across the 
border in February 2001. The cafe owner--and I am not going to 
pronounce his name--admitted to assisting more than 300 
Lebanese sneak into the U.S. in similar fashion over a 3-year 
period; is that correct?
    Mr. Levitt. Yes, sir.
    Mr. Duncan. Okay. So we know or we believe that there are 
Iranian Government officials in the U.S. right now. Some of 
them are spies for Iran's Ministry of Intelligence Security, or 
MOIS. Others may be members of the Iranian Islamic 
Revolutionary Guard, IRGC, or Quds Force. Indeed IRGC members 
assigned to the Iranian mission at the United Nations in New 
York have repeatedly been expelled from this country for 
conducting preoperational surveillance of potential terror 
targets.
    So in light of what the State Department did or did not say 
in their assessment that the Iranian threat in the Western 
Hemisphere is waning, what action are you to believe that State 
should take to mitigate this threat? And I ask that to Dr. 
Levitt and to Mr. Braun.
    Mr. Levitt. There are lots of different things that can and 
should be done. The first is I think there is a need for a 
scrub of the next report that delves into these issues a lot 
more carefully.
    But there are lots of other things that can be done, and we 
should be trying to come at this through multiple different 
angles. In the current report the State Department stressed its 
success at leveraging diplomatic relationships, and that is not 
to be scoffed at. There is a lot that can be done by working 
with allies to make this region less hospitable to groups like 
the Quds Force or Hezbollah.
    Mr. Duncan. Let me ask you this: Did it surprise you that 
the State Department didn't even talk to any of the allies in 
this region?
    Mr. Levitt. It did. It did. It should not just be a 
diplomatic effort, though. Mike can tell you better than I, 
there is so much that can be done at the law enforcement level 
in terms of cooperation on counternarcotics or other things. 
And I will give you a tangible example that gets back to the 
AMIA case that we have centered this testimony around.
    After the 1992 bombing of the Israeli Embassy from Buenos 
Aires, nothing was done all that serious, and then less than 2 
years later the AMIA Jewish Community Center was bombed as 
well. One of the things that the U.S. Government--and some of 
the leadership here was from State Counterterrorism at the 
time--took it upon itself to lead through law enforcement and 
intelligence channels something that became known as Operation 
Double Tap. Operation Double Tap didn't involve the T word, 
``terrorism,'' and it didn't involve the H word, ``Hezbollah.'' 
It just involved us working with our allies, their intelligence 
and law enforcement services with ours, to identify bad 
actors--almost every single one of them is also involved in all 
kinds of criminal activity, whether it is in the triborder, as 
you said, or elsewhere, the human smuggling cases cited or 
many, many others--and simply Al Capone-ing them and trying 
them for tax evasion, for example, or other things, and it was 
very successful. It was disruptive to their activities, and in 
some cases we actually saw people from South America leaving 
the region, even if they weren't themselves targeted, but 
because the pressure was getting too hot, and going elsewhere; 
for example, to Africa.
    So there is lots of different tools in our toolbox, and I 
can't tell you what we are or are not doing, because that is 
classified; and it is not that I know and can't tell you, I 
don't know anymore. But this report doesn't suggest to me to 
reflect the reality as I understand it.
    Mr. Duncan. Mr. Braun?
    Mr. Braun. Mr. Duncan, I mean, you have heard me say this 
before. I think first and foremost the most important thing we 
have got to do is, again, demand interlocking counternarcotics/
transnational criminal activity strategies with 
counterterrorism strategies. You have got departments and you 
have got agencies in this town that are attempting to address 
both threats, and they are not even talking internally, much 
less externally.
    There are strategies that are developed and have been 
developed routinely over the past few years; as an example 
focused on Latin America, a counternarcotics strategy for Latin 
America that doesn't even mention the word ``terrorism'' 
anywhere. The Revolutionary Armed Forces of Colombia, for God's 
sakes. The case study has been around since 1964.
    There are state sponsorship. The Soviet Union, or the old 
Soviet Union, comes apart at the seams, that funding stream 
dries up almost overnight. And what they had been fundamentally 
opposed to, diabolically opposed to, and that was getting 
involved in the cocaine trade, literally they made a decision 
unanimously, the FARC Executive Secretariat, with less than 5 
minutes of discussion in the early 1990s, that they were making 
a monumental change. It was the only way they were going to 
keep their movement alive.
    And as we continue to successfully prosecute the global war 
on terror--that may not be politically correct these days--but 
as we continue to press hard on the global war on terror, you 
are going to see more and more of these groups that are left 
with no choice. They have got to and they will inevitably turn 
to transnational criminal activity, organized crime, to keep 
their movements alive. That is what Hezbollah is doing, Hamas, 
Abu Sayyaf. You know, you can go right down the line. Well over 
70, 75 percent of all of the designated foreign terrorist 
organizations are now involved in this activity, and we are not 
doing enough to turn it around.
    A couple other things real quick. We have got to break our 
obsession with developing strategies to defend the 1-yard line, 
meaning our southwest border and our northern border. We can't 
take our eyes off of them, but we need to get more resources 
downrange, like I talked about earlier, so that we can counter 
these threats when they are 1,000 miles out, rather than when 
they are on our border, or, God forbid, we have already talked 
about this, inside our border. The threat is already inside of 
our border. Let us, you know, gate it off, let us fence it off 
as best we can and get a handle on this situation.
    And then finally, and this is extremely important, we have 
really got to revitalize a focus on the traditional threats. If 
our Federal law enforcement, and State and local counterparts, 
and our foreign counterparts, as Matt was saying, you know, got 
refocused on drugs, guns, money, humans, counterfeiting, 
extremely important, countercorruption, those kinds of things 
take our law enforcement headlong straight in to terrorist 
operatives and the organizations that they represent. And we 
have seen that play out time and time again with the DEA 
investigations over the past few years that I have talked about 
and that Matt has talked about many times, and certainly that 
you all know about. Thank you.
    Mr. Duncan. Thank you for that.
    The chairwoman has been very gracious with the time, but I 
will remind the committee of Isaiah 5:20. We have got to be 
able to talk about the enemy of this country and this war on 
terror.
    Thank you, Madam Chairman. I yield back.
    Ms. Ros-Lehtinen. Amen.
    Gentlemen, I want to thank you for your patience. You have 
been incredible witnesses. Not only was your testimony just so 
on point, but you were gracious enough to wait for us to do the 
people's business, and for that we thank you. And I have every 
confidence that with the leadership of Matt Salmon and Albio 
Sires, we will finally get the State Department to come and 
testify in an open setting on the issue of Iran's influence in 
the Western Hemisphere. May it be thus.
    Mr. Deutch and I say muchas gracias, thank you so much. It 
was a pleasure. And with that the subcommittee is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                    \<box>ss<box><natural><o-times>
            <F-dash>a<natural><Rx>sw<pound><natural>t<star>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
